<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 116-231]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 116-231

 
                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                              ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
 40-873 PDF             WASHINGTON : 2020        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 11, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...     2
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    33

                              LEGISLATION

S. 3239, the William T. Coleman, Jr., Department of 
  Transportation Headquarters Act................................     4
General Services Administration Resolutions......................     6


                            BUSINESS MEETING

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 9:47 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Cramer, Braun, 
Rounds, Sullivan, Wicker, Ernst, Cardin, Merkley, Gillibrand, 
and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    Today, we are going to consider one bill and 18 General 
Services Administration Resolutions.
    Senator Carper and I have agreed that we will begin voting 
at 9:55. At that time, I will call up the items on the agenda.
    We are not going to debate the items on the agenda while we 
are voting. Instead, we are going to debate them before we 
begin voting.
    I will also be happy to recognize any member who still 
wishes to speak after the voting concludes.
    Today, we are going to consider S. 3239, the William T. 
Coleman, Jr., Department of Transportation Headquarters Act. 
Senator Wicker introduced S. 3239 at the end of January. I 
joined the bill as an original cosponsor, and so did Ranking 
Member Carper and Senators Booker, Cantwell, Casey, Harris, 
Toomey, Scott, and Inhofe.
    I want to thank Senator Wicker for his work on this 
bipartisan piece of legislation.
    William T. Coleman devoted his life to public service. He 
was the first African American Secretary of Transportation, and 
only the second African American to hold a cabinet level 
position. The bill commemorates his legacy by designating the 
United States Department of Transportation's headquarters as 
the William T. Coleman, Jr., Federal Building.
    A Republican, Coleman was an advisor to every President, 
Republican and Democrat, from Dwight David Eisenhower through 
George W. Bush. His service included appointments to several 
presidential commissions.
    As an esteemed civil rights attorney, Coleman was a lead 
strategist and co-author of the legal brief filed for the 
Supreme Court seminal case on racial inequality, Brown v. the 
Board of Education. His participation in this landmark case 
came just a few years after he broke new ground as the first 
African American to clerk for a U.S. Supreme Court Justice.
    At Harvard Law School, Coleman was the third African 
American to serve on the Board of Editors of the Harvard Law 
Review. He graduated in 1946, ranked first in his class.
    Coleman broke down racial barriers for others who came 
after him. In 1995, Coleman was awarded the Nation's highest 
civilian honor, the Presidential Medal of Freedom, for his 
contributions to the legal profession and to society.
    William T. Coleman, Jr., passed away in March 2017. It is 
an honor to join my fellow Senators to celebrate the life of 
such a distinguished American, and I encourage every Senator to 
support this legislation.
    Today, we are also going to consider 18 resolutions to 
approve prospectuses providing for General Services 
Administration's leases. These prospectuses will allow agencies 
including the Federal Bureau of Investigation to consolidate 
space, resulting in increased efficiency and saving taxpayer 
money. The Federal Government stands to save roughly three and 
a half million dollars each year if all of the prospectuses are 
approved.
    In a few seconds, I will turn to Senator Carper for his 
opening statement, and if any other member has anything that 
they would like to offer at this time, I would be happy to 
recognize them.
    As we are waiting for Senator Carper, who has been 
unavoidably detained, I would like to call on Senator Wicker at 
this time, as the piece of legislation that we are voting on 
today is one with you as the original sponsor, and a number of 
us as original cosponsors.
    Senator Wicker, at your convenience.

            OPENING STATEMENT OF HON. ROGER WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Well, thank you so much, Mr. Chairman, and 
fellow members, Republican and Democrat. I do appreciate the 
support, the co-sponsorship of this important step that the 
Committee will take today. To honor a man of heroic achievement 
and inspiration, a pioneer, and what better month to do it than 
February, Black History Month.
    William T. Coleman, Jr., was an accomplished legal scholar, 
World War II veteran, and civil rights leader who had already 
left his mark on history, and then he became a cabinet 
secretary. He was the first African American to clerk for the 
U.S. Supreme Court. As a young attorney, he worked on five 
cases for the NAACP Legal Defense Fund, cases that lead 
directly to the Court's landmark ruling in Brown v. Board of 
Education.
    He was also co-council in the McLaughlin v. Florida case 
that led to the end of State bans on interracial marriage. How 
far we have come since then. Our honoree would later serve on 
presidential commissions during the Eisenhower, Kennedy, 
Johnson, and Nixon administrations.
    In 1975, he was tapped by President Gerald Ford to be the 
Nation's fourth Secretary of Transportation, the first African 
American to hold such a position, and only the second African 
American to hold any cabinet level position.
    Secretary Coleman provided a forward looking vision for the 
future of transportation, spearheading the first comprehensive 
national study on transportation policy, and several important 
reform efforts. The William T. Coleman, Jr., Department of 
Transportation Headquarters Act would name the Department of 
Transportation's headquarters after this groundbreaking leader.
    I want to thank my colleagues, Chairman Barrasso, Ranking 
Member Carper, and Senators Cantwell, Tim Scott, Harris, 
Toomey, Casey, Booker, and Inhofe, for cosponsoring this 
important legislation, and I am sure others will want to 
cosponsor it also, but we just needed to go ahead and bring the 
bill up at this point.
    So, Mr. Chairman and my fellow Senators, I think we will 
all agree this is a fitting tribute, will be a fitting tribute, 
a lasting tribute to a distinguished public servant which will 
honor his legacy for generations to come.
    Thank you, Mr. Chairman.
    Senator Barrasso. Well, thank you very much, Senator 
Wicker. We appreciate your leadership on this and are looking 
forward to getting this out of Committee today.
    Would anyone else like to make any comments or statements 
prior to the vote? Because we do have enough members who have 
arrived, and Senator Carper has agreed to hold his opening 
statement until after the vote. Because we know a number of 
people have conflicts starting in a few moments.
    So now that enough members have arrived, I would like to 
move to vote on the item on today's agenda.
    The Ranking Member and I have agreed to vote on S. 3239, 
the William T. Coleman, Jr., Department of Transportation 
Headquarters Act, and the 18 General Services Administration 
Resolutions, en bloc, by voice. Members may choose to have 
their votes recorded for a specific item in that block after 
the voice vote.
    I would now like to call up S. 3239, the William T. 
Coleman, Jr., Department of Transportation Headquarters Act and 
18 General Services Administration Resolutions en bloc.
    [The text of S. 3239 and the General Services 
Administration Resolutions follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Barrasso. I move to approve and report S. 3239 and 
approve 18 GSA Resolutions en bloc.
    Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, say nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, as the eyes 
have it, we have approved S. 3239, which will be reported 
favorably to the Senate. We have also approved 18 GSA 
Resolutions.
    The voting part of the business meeting is finished. I 
would be happy to recognize any member, but want to start with 
Senator Carper. So any other members may make a statement on 
the legislation or resolutions that we have just approved.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Senator Cardin said, don't take this 
personally, I don't.
    [Laughter.]
    Senator Carper. Good morning, everybody, and thanks Mr. 
Chairman, and thanks to our staff for the work you have done, 
that has been done on the agenda today, two agenda items today. 
As our Chairman has already noted, even before I got here, we 
have considered legislation to designate the U.S. Department of 
Transportation headquarters building as the William T. Coleman, 
Jr., Federal Building.
    I believe the naming of that headquarters after Mr. Coleman 
is a fitting tribute as we celebrate African American History 
Month again this year. Mr. Coleman was the fourth Secretary of 
Transportation and the second African American to hold a 
cabinet-level post in our Nation's history. Think about that.
    Mr. Coleman wrote in his autobiography these words, 
passionate words, he said, ``We cannot simply build highways 
willy nilly. We need coordinated regional transportation plans 
that preserve the quality of urban life, conserve energy, and 
reduce air pollution, including that from the new threat of 
greenhouse gas emissions.''
    That was like, decades ago. Talk about somebody who was 
ahead of his time. Mr. Coleman's words have even greater 
meaning today as we confront this global climate crisis.
    I asked my staff, I said find a quote from William Coleman 
that I might slip into my remarks, and that one really nails 
it. But to dedicate the Department of Transportation 
headquarters when the Federal Government takes possession of 
the building next month, is an honor befitting Mr. Coleman's 
lifetime of service.
    I am happy to be an original cosponsor of the legislation 
along with you, Mr. Chairman. I am pleased that we are moving 
this legislation today.
    Today, we are also taking up 18 General Services 
Administration Prospectuses Resolutions which will release most 
of the backlog that has built up here at our Committee. I would 
be remiss if I did not mention that many concerns still remain 
from the Old Post Office Lease, to recent news by USDA and the 
Bureau of Land Management to what needs to be done for and with 
the FBI headquarters building.
    Regarding the FBI, for example, we still have, I didn't 
believe this at first, I double checked with my staff, but I am 
told we still have questions for the record that have gone 
unanswered. These questions for the record are from an 
oversight hearing this Committee held almost 2 years ago.
    Let me just say that again. We have not received answers 
from GSA to questions from members of this Committee from a 
hearing almost 2 years ago. In that same hearing, GSA indicated 
that they would be sending up prospectuses regarding the FBI 
headquarters. Two years later, we are still waiting.
    Let me say that again, too. At that same hearing, GSA 
indicated that they would be sending up a prospectus regarding 
the FBI headquarters. Two years later, we are still waiting for 
that, too.
    We know the Hoover Building in downtown Washington, DC, is 
unsafe, but action remains unseen.
    I hope we can continue to work together to press for 
answers with you, Mr. Chairman, and with all of our colleagues 
on this Committee.
    With that, I look forward to again concluding this meeting 
this morning.
    I want to thank you, Senator Barrasso, I want to thank you 
as our Chairman, along with our colleagues and members of their 
staff for all the work that has been done to make this meeting 
both swift and productive.
    Thanks.
    Senator Barrasso. Well, thank you very much, Senator 
Carper, for your ongoing leadership on these very important 
issues.
    I do ask unanimous consent that the staff have authority to 
make technical and conforming changes to each of the matters 
that have been approved today.
    With that, our business meeting is concluded, and we are 
adjourned.
    [Whereupon, at 10 a.m., the business meeting was 
concluded.]

                                 <all>
</pre></body></html>
